No. 19-465

In The Supreme Court Of The United States
PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
Petitioners,
v.

CERTIFICATE OF
WORD COUNT

STATE OF WASHINGTON,
Respondent.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Response Brief, which was prepared using Century Schoolbook 12-point
typeface, contains 12,986 words, excluding the parts of the document that are exempted
by Rule 33.1(d). This certificate was prepared in reliance on the word-count function of
the word-processing system (Microsoft Word) used to prepare the document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 1st day of April 2020.
s/ Noah G. Purcell
Noah G. Purcell
Solicitor General
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

